 Spotlight
 Department of Homeland Security

Ofﬁce of Inspector General                                                                                  September 2014 OIG-14-135



(U) Review of DHS' Information Security Program
for Intelligence Systems for Fiscal Year 2014

(U) Unclassified Summary
(U) We evaluated the Department of Homeland Security’s (DHS) enterprise-wide security program for Top Secret/Sensitive
Compartmented Information intelligence systems. Pursuant to the Federal Information Security Management Act, we reviewed the
Department’s security program including its policies, procedures, and system security controls for enterprise-wide intelligence
systems. In doing so, we assessed the Department’s continuous monitoring, configuration management, identity and access
management, incident response and reporting, risk management, security training, plans of actions and milestones, remote access,
contingency planning, contractor systems and security capital planning. The United States Coast Guard (USCG) has migrated the
Coast Guard Intelligence Support System into a new system that is supported by DHS, the Defense Intelligence Agency and USCG.

(U) Since the Fiscal Year 2013 evaluation, I&A continues to provide effective oversight of department-wide systems and maintains
programs to monitor ongoing security practices. I&A has updated its security policies and procedures and has implemented strong
configuration management controls for DHS' Classified Local Area Network (C-LAN). We identified deficiencies in the areas of
I&A’s incident response and reporting and contingency planning; and in USCG’s continuous monitoring, configuration
management, risk management, security training, and contingency planning. Fieldwork was conducted from May through August
2014. (OIG-14-135, September 2014, ITA)




For Further Information:
Contact our Office of Public Affairs at (202)254-4100, or email us at DHS-OIG.OfficePublicAffairs@oig.dhs.gov
